<html>
<title> - LEGAL OPTIONS TO STOP HUMAN TRAFFICKING</title>
<body><pre>[Senate Hearing 110-142]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-142
 
                LEGAL OPTIONS TO STOP HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2007

                               __________

                          Serial No. J-110-24

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE

37-695 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director
                                 ------                                

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
EDWARD M. KENNEDY, Massachusetts     TOM COBURN, Oklahoma
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     SAM BROWNBACK, Kansas
                      Joseph Zogby, Chief Counsel
                 Mary Harned, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    68

                               WITNESSES

Becker, Grace Chung, Deputy Assistant Attorney General, Civil 
  Rights Division, Department of Justice, Washington, D.C........     4
Burkhalter, Holly J., Vice President for Government Relations, 
  International Justice Mission, Washington, D.C.................    11
Kaufka, Katherine, Supervising Attorney, Counter-Trafficking 
  Services Program, National Immigrant Justice Center, Chicago, 
  Illlinois......................................................     5
Vandenberg, Martina E., Attorney, Jenner & Block, LLP, 
  Washington, D.C................................................     8

                         QUESTIONS AND ANSWERS

Responses of Grace Chung Becker to questions submitted by Senator 
  Durbin.........................................................    31

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Women's Rights Project and 
  Washington Legislative Office, statement.......................    38
Becker, Grace Chung, Deputy Assistant Attorney General, Civil 
  Rights Division, Department of Justice, Washington, D.C., 
  statement......................................................    44
Burkhalter, Holly J., Vice President for Government Relations, 
  International Justice Mission, Washington, D.C., statement.....    57
Department of Justice, Inspector General, Arlington, Virginia, 
  memorandum.....................................................    65
Kaufka, Katherine, Supervising Attorney, Counter-Trafficking 
  Services Program, National Immigrant Justice Center, Chicago, 
  Illinois, statement............................................    71
Vandenberg, Martina E., Attorney, Jenner & Block, LLP, 
  Washington, D.C., statement....................................    75


                LEGAL OPTIONS TO STOP HUMAN TRAFFICKING

                              ----------                              


                         MONDAY, MARCH 26, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                  Subcommittee on Human Rights and the Law,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good afternoon. The meeting of the Human 
Rights and Law Subcommittee of the Senate Judiciary Committee 
will come to order.
    Unfortunately, my Ranking Member, Senator Coburn, had 
alerted me in advance that he had a difficult day and wasn't 
sure he could make it back today. He is completely interested 
in this subject and I know will follow through his staff and 
otherwise on the findings of this hearing, and I'm sure other 
members of the Subcommittee will as well. But he has, from my 
point of view, an excused absence because of scheduling, which 
happens to us from time to time.
    This is the first time in the history of the Senate that we 
have created a Subcommittee on Human Rights and the Law. I 
think it's crucial at this point in time. Repressive regimes 
that violate human rights create fertile breeding for 
terrorism, war, poverty, and exploitation. Our Nation and our 
world will never be fully secure as long as fundamental human 
rights are not honored.
    Our first hearing was just last month. We addressed the 
issue of genocide and the rule of law, focusing on the mass 
killings and genocide in Darfur. I'm proud to say that, as a 
result of that hearing, we've introduced bipartisan legislation 
to promote divestment in Sudan and to expand the reach of U.S. 
law so that we can prosecute non-U.S. nationals who are in this 
country for crimes of genocide they committed abroad. We will 
continue to try to make this a Subcommittee that focuses on 
legislation, not just lamentations.
    Today we're going to take up a topic which may be as old as 
mankind. From the beginning of time there has been evidence of 
exploitation and slavery. We haven't been spared in our 
generation.
    At today's hearing, we will consider the issue of human 
trafficking. Few issues in the world today raise as many human 
rights implications as this insidious practice. It's estimated 
that one million people are trafficked across international 
borders each year, pressed into labor, servitude, or commercial 
sex by the use of force, fraud, and coercion.
    Human trafficking represents commerce in human misery. As 
an introduction to today's hearing, I would like to show a very 
brief video on human trafficking. It begins with a short public 
service announcement put together by the United Nations to help 
raise awareness of the issue.
    The second part of the video is an interview with a 
trafficking victim from Cambodia. The purpose of these videos 
is to put a human face on the issue that we will talk about 
today.
    [Whereupon, a video was played.]
    Chairman Durbin. Former General Secretary Kofi Annan has 
said: ``The world is now wrestling with a new form of slavery, 
trafficking in human beings, in which many vulnerable people 
are virtually abandoned by legal and social systems into a 
sordid realm of exploitation and abuse.''
    If there's any silver lining to this problem, it's that the 
world is now beginning to open its eyes. There are 117 
signatories to the United Nations' trafficking protocol, and 
many of these countries have passed tough anti-trafficking laws 
in the past few years.
    The United States passed its first major anti-trafficking 
law in 2000. We cannot discuss this issue in the U.S. Senate 
without mentioning the visionary leadership of the late Senator 
Paul Wellstone. Senator Wellstone called the trafficking of 
human beings ``one of the most horrendous human rights 
violations of our time.''
    On the day Congress passed the Trafficking Victims 
Protection Act on October 11, 2000, Senator Wellstone went to 
the floor of the Senate. He was very happy that day, and you 
could tell when Paul Wellstone was happy.
    He praised his lead co-sponsor, Senator Sam Brownback, who 
has been a great champion of human rights for years. Senator 
Wellstone praised the broad coalition of groups that came 
together for the bill: human rights groups, women's rights, 
evangelical and Jewish groups, and members of the Clinton 
administration.
    This is what Paul said: ``I believe with passage of this 
legislation...we are lighting a candle. We are lighting a 
candle for these women and girls and sometimes men forced into 
forced labor.... This is the beginning of an international 
effort to go after this trafficking, to go after this major, 
god-awful human rights abuse.''
    Senator Wellstone's commitment to stopping human 
trafficking and other human rights abuses stands as one of his 
most enduring legacies, despite his untimely passing a little 
over 4 years ago.
    The candle Senator Wellstone lit nearly 7 years ago is 
burning bright and we rekindle it today. Thanks to the passage 
of the Trafficking Victims Protection Act of 2000 and the legal 
tools that Senator Wellstone gave us, we have made progress.
    The State Department, under the leadership of my friend and 
former colleague in the House, John Miller, pushed recalcitrant 
countries around the globe to pass anti-trafficking laws and to 
help victims.
    John called and regretted that he couldn't be with us 
today, but he's here in spirit. Of course, human trafficking is 
not just happening in far-off lands, it's happening right here 
in the United States.
    The Department of Justice has done an admirable job of 
investigating and prosecuting trafficking cases. These cases 
are often very difficult to bring because trafficking victims 
are isolated, trapped, and frightened. If victims are able to 
break free, they are often reluctant to talk to law enforcement 
out of fear of deportation, arrest, or prison.
    For this reason, the role of victim and legal service 
providers is especially important in this fight against human 
trafficking. Organizations like the National Immigrant Justice 
Center in Chicago, which I am honored to represent, are trusted 
sources of aid for trafficking victims. These groups work 
closely with prosecutors to gain the trust of victims and make 
the case.
    At today's hearing we will ask, 7 years after the passage 
of the Trafficking Victims Protection Act, what progress has 
the U.S. Government made in combatting human trafficking in the 
United States and overseas? What are we doing right, and what 
can we do better?
    What aspects of the Trafficking Victims Protection Act and 
its 2003 and 2005 reauthorizations, should be changed or 
strengthened? Should Congress amend the law to make it easier 
and quicker for trafficking victims in the U.S. and their 
family members to receive a ``T visa'' and other government 
benefits?
    We're also going to ask some hard questions. Why hasn't the 
United States done more to punish U.S. contractors in Iraq and 
other foreign countries who engage in human trafficking? How 
can we hold foreign diplomats in the United States responsible 
for trafficking when we're up against diplomatic immunity?
    I intend to introduce legislation that will address some of 
the problems after we've talked about them at this hearing and 
I've discussed them with my colleagues. Several parts of the 
Trafficking Victims Protection Act are set to expire at the end 
of this year, so this is a good time to look carefully at this 
law and figure out what we need to do to further the fight 
against human trafficking.
    At this point in time we're going to turn to our 
distinguished panel of witnesses and ask each of them to make 
an opening statement of about 5 minutes. Their complete written 
testimony I commend to all who are here, because each one of 
them has taken the time to write a very good and probing 
statement about this issue.
    Will the witnesses, at this point, please stand and raise 
their right hands to be sworn?
    [Whereupon, the witnesses were duly sworn.]
    Chairman Durbin. Let the record reflect that all four 
witnesses have replied in the affirmative.
    The first witness is Grace Chung Becker. Thank you, Ms. 
Becker, for being here. She represents the Department of 
Justice. She's a Deputy Assistant Attorney General in the Civil 
Rights Division and helps supervise the Division's human 
trafficking prosecutions. Before that, she worked at the 
Defense Department as Associate Deputy General Counsel.
    Before that, she worked right here, probably in this room, 
at the Senate Judiciary Committee. She was counsel to then-
Chairman Senator Orrin Hatch in the 108th Congress. She served 
as a law clerk to two Federal judges here in Washington, and is 
a graduate of an outstanding law school, Georgetown, and the 
University of Pennsylvania Wharton School of Finance.
    Ms. Becker?

  STATEMENT OF GRACE CHUNG BECKER, DEPUTY ASSISTANT ATTORNEY 
    GENERAL, CIVIL RIGHTS DIVISION, DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Ms. Becker. Thank you very much, Senator Durbin. Good 
afternoon, Chairman Durbin. It's an honor and privilege to 
appear before the Committee today.
    For decades, the Civil Rights Division has been charged 
with enforcing statutes prohibiting slavery, involuntary 
servitude, and peonage.
    Human trafficking is a form of modern-day slavery that 
touches virtually every community in America, urban or rural, 
affluent neighborhoods, as well as poor communities. This is a 
crime that can occur anywhere, anytime, and against any 
vulnerable victim.
    Traffickers prey on U.S. citizens as well as foreigners. 
They use force, fraud or coercion against prostitutes, domestic 
servants, factory machinists, and migrant farm laborers. 
Victims have included college students coerced into commercial 
sex in Atlanta, homeless men forced to work as farm laborers in 
Florida, and individuals with hearing impairments forced to 
peddle sign language cards in the New York City subways.
    Human trafficking is a priority for the President and the 
Attorney General and I am pleased to report that the Civil 
Rights Division has adopted an aggressive strategy to fight 
this invidious crime.
    The Attorney General recently announced the formation of a 
Human Trafficking Prosecution Unit in the Criminal Section of 
the Civil Rights Division. The unit consists of an elite group 
of expert prosecutors who will provide investigative and 
prosecutorial assistance, as well as coordination.
    This unit is necessary because we're seeing more complex 
cases involving multiple jurisdictions, multiple law 
enforcement agencies, and financial or organized crimes. The 
unit also serves as a resource for training, outreach, and 
policy development.
    The unit works closely with prosecutors within the section, 
as well as with U.S. Attorneys' Offices, and Human Trafficking 
Task Forces around the country. These task forces reflect the 
Civil Rights Division's victim-centered approach.
    They are comprised of members from Federal, State, and 
local law enforcement, and they also include representatives 
from non-governmental organizations who provide much-needed 
services to restore the victims of this terrible crime.
    We work together to ensure that the victim's safety and 
housing needs are taken care of, to see that their medical and 
psychiatric needs are also taken care of, and for our foreign 
victims, to cooperate in normalizing their immigration status.
    This victim-centered approach works. In conjunction with 
U.S. Attorneys' Offices around the country, the Civil Rights 
Division has increased by 600 percent the number of human 
trafficking cases filed in court in the last 6 years.
    From 2001 till today, we've initiated about 725 
investigations. Last year, we received one of the highest 
sentences ever in a sex trafficking case for two of our lead 
defendants: 50 years of imprisonment. We also received one of 
the highest orders of restitution, over $900,000, for a labor 
trafficking prosecution in Milwaukee.
    Let me just give you one example. The victim in this case 
was just 9 years old--that's the same age as my daughter--when 
her parents were sold into servitude in Egypt. When she was 12, 
she was brought to the United States and forced to work as a 
domestic servant in Orange County, California.
    She was forced to cook for a family of seven, clean the 
entire house, and baby-sit the younger children. Meanwhile, the 
young girl could only eat leftovers and was forced to live in 
the squalor of the garage. The defendants controlled the child, 
who could not speak English, by taking her passport, assaulting 
her, forbidding her to make friends or to go to school.
    The defendants also threatened to report her older sister 
to the police in Egypt for previously stealing from the 
defendants if the victim ever tried to leave their employ. The 
defendants are now in prison and will likely be deported to 
Egypt after serving their sentence. They've paid $78,000 in 
restitution. By contrast, the victim is now studying in high 
school and can use her restitution money to achieve her dreams 
of going to college.
    But there is much more work to be done, and that is why I 
support the President's request for an additional $1.7 million 
for the Civil Rights Division. As the Civil Rights Division 
turns 50 years old, it remains committed to supporting the 
values of our Nation, including the liberty promised by the 
Thirteenth Amendment of our Constitution.
    Thank you.
    Chairman Durbin. Thank you very much.
    [The prepared statement of Ms. Becker appears as a 
submission for the record.]
    Chairman Durbin. We will now hear from Katherine Kaufka. 
She works in Chicago at the National Immigrant Justice Center. 
She's the supervising attorney for Counter-Trafficking 
Services, and she's worked with many victims in Illinois and 
across the country.
    She's a member of the Chicago Task Force on Human 
Trafficking and the Freedom Network USA, which is an important 
national network of service providers and attorneys who work 
with victims.
    Ms. Kaufka has written articles about trafficking victims' 
services and has helped trained Federal prosecutors. She is a 
graduate of the University of Wisconsin Law School and the 
University of Michigan.
    Ms. Kaufka?

 STATEMENT OF KATHERINE KAUFKA, SUPERVISING ATTORNEY, COUNTER-
   TRAFFICKING SERVICES PROGRAM, NATIONAL IMMIGRANT JUSTICE 
  CENTER, HEARTLAND ALLIANCE FOR HUMAN NEEDS & HUMAN RIGHTS, 
                       CHICAGO, ILLINOIS

    Ms. Kaufka. Thank you, Chairman Durbin. Thank you for the 
privilege of testifying today on behalf of survivors of human 
trafficking who are victims of some of the most horrific human 
rights violations that we see today.
    I have represented dozens of trafficking victims at the 
National Immigrant Justice Center, a leading national advocate 
for the protection of human rights of non-citizens.
    Current anti-trafficking laws help victims every day, and 
we are grateful to Members of Congress for their critical 
support of these statutes. Nonetheless, the laws can be 
improved. In my testimony today I will address three areas of 
the law that fail to provide adequate protections for human 
trafficking victims.
    First, providing greater protections for victims and their 
families is critical. Second, the laws must ensure that victims 
who make an effort to cooperate with law enforcement are 
adequately protected. Third, we must recongnize the importance 
of responding to the special needs of children who are victims 
of human trafficking.
    Approximately 15,000 to 18,000 men, women, and children are 
trafficked to the United States every year. However, since the 
passage of the Trafficking Victims Protection Act over 6 years 
ago, almost 400 cases have been prosecuted on human trafficking 
charges and approximately 1,500 trafficking visas have been 
issued.
    While it was the intent of the statute to punish 
traffickers and protect victims, these statistics show that we 
have failed to fulfill our goals. We believe that a principal 
cause of this failure is that the burdens placed upon victims 
are simply too high.
    The first area I would like to discuss is the need to 
provide greater protection to trafficking victims and their 
families. Many victims are intimidated by the traffickers with 
threats against the safety and livelihood of immediate family. 
The victim's fear of harm to his or her family often prevents 
the victim from reporting the trafficking crime to authorities.
    One client that we represent, whom I will call Anuja, was 
trafficked to a suburb of Chicago from a small Indian village 
when she was about 11 years old. She was forced to cook, clean, 
and take care of two small boys around the clock.
    Four years later, she managed to escape. Anuja was 
interviewed by law enforcement, but she was reluctant at first 
to tell her full story because she was afraid that the 
traffickers would hurt her little sisters in India, a threat 
that they had made to her many times. Anuja would have been 
better able to assist law enforcement if she knew her family 
was safe and if they could have supported her during the 
prosecution of her abusers in the United States.
    We recommend that victims of trafficking who cooperate with 
law enforcement have the option to be united with family to 
support them through the legal process. If those family members 
reside outside the United States, they should be allowed to 
enter the United States temporarily to aid the prosecution's 
efforts. This change to the law will not only enhance victim 
protection, it would lead to more successful prosecution of 
criminal traffickers.
    The second issue that I want to address is the need to 
ensure full protection for victims who make an effort to assist 
law enforcement. Under current law, if authorities fail to 
respond or open an investigation, the trafficking victim who 
reported the crime will have no further opportunity to assist 
authorities and access protection.
    We represent a woman, Padma, and her two daughters who were 
brought from India to Countryside, Illinois in 1998 and forced 
to work at a restaurant. Padma and her daughters escaped in 
2001 and lived in hiding for years. They were too frightened to 
seek assistance until 2005, when a women's shelter referred 
them to the National Immigrant Justice Center.
    Once she learned she could play a role in her case, Padma 
wanted justice for her family. We immediately reported the 
crimes to the Department of Justice and to the Chicago FBI 
office.
    However, it took Federal authorities a year to interview 
Padma and, consequently, it took a year for Padma and her 
daughters to be legally recognized as victims and to receive 
the protections and services that they needed. Padma's earlier 
attempts to cooperate with law enforcement were not enough for 
her to be recognized as a victim under the law.
    We recommend that the survivor of human trafficking who 
makes a good-faith attempt to cooperate with law enforcement 
should be eligible for a trafficking visa. Where the victim 
tries to assist but law enforcement takes no action, the victim 
should not be denied protection.
    Finally, I want to speak about the need to enhance 
protection for victims of human trafficking who are 
unaccompanied children. These are, indeed, the most vulnerable 
of our victim population. Unfortunately, all too often 
authorities fail to recognize potential trafficking victims and 
treat children as alleged criminals.
    A client from El Salvador, whom I will call Sonia, was just 
15 years old when Federal agents discovered her in a brothel. 
She was interrogated for hours. Sonia was ashamed and fearful 
of both the traffickers and the Federal agents, so she said 
that at first nothing happened when she was in the brothel. 
Sonia was held in custody in Chicago and immediately placed in 
deportation proceedings.
    Sonia's case demonstrates the great sensitivity that must 
be applied to cases involving children. We recommend that 
whenever authorities encounter a child in an environment that 
involves forced labor or commercial sex, officials should 
assume that the child is a victim of trafficking. At that point 
they should immediately refer the child to the Department of 
Health and Human Services for appropriate services and counsel.
    Let me sum up by reiterating the three critical 
improvements we recommend that you make to the current law. 
Providing protection not only to victims but also to their 
immediate family members will help these victims better assist 
law enforcement in prosecuting the traffickers. We must offer 
protection to victims who make a good-faith attempt to aid 
authorities in the investigation and prosecution of human 
trafficking cases. To deny these victims protection is unjust.
    Finally, potential child trafficking victims must be 
immediately referred to the Department of Health and Human 
Services, provided appropriate services and guaranteed access 
to legal counsel.
    Thank you for allowing me the opportunity to speak. I would 
be happy to answer any questions.
    [The prepared statement of Ms. Kaufka appears as a 
submission for the record.]
    Chairman Durbin. Ms. Martina Vandenberg is an attorney in 
the Washington, DC office of the law firm of Jenner & Block. 
Last year, Ms. Vandenberg was the recipient of her law firm's 
Pro Bono Award for her legal representation of trafficking 
victims, and her advocacy to end impunity for U.S. contractors 
who engage in human trafficking while serving with U.N. 
peacekeeping missions abroad.
    Ms. Vandenberg previously worked as the European researcher 
at Human Rights Watch, where she conducted extensive research 
and wrote reports on human trafficking in Bosnia, Herzegovina, 
Russia, Uzbekistan, and Kosovo.
    Ms. Vandenberg has taught at American University and has 
spoken nationally and internationally on women's human rights 
issues and human trafficking. She is a graduate of Columbia Law 
School, Pomona College, and Oxford University, where she was a 
Rhodes scholar.
    Ms. Vandenberg?

 STATEMENT OF MARTINA E. VANDENBERG, ATTORNEY, JENNER & BLOCK, 
                      LLP WASHINGTON, D.C.

    Ms. Vandenberg. Thank you, Senator Durbin. It's an honor to 
testify before you today on a grave, grave violation of human 
rights, trafficking in persons.
    Over the past decade, Congress, the executive branch, and 
the non-governmental community, we've worked together to 
develop innovative criminal and civil remedies for 
traffickers--to bring traffickers to justice. But these gaps--
gaps still do exist, and traffickers continue to operate with 
impunity, violating the human rights of trafficking victims 
every day.
    I'd like to focus briefly this afternoon on three concrete 
trafficking cases that illustrate these gaps. I'll begin with 
the human rights norms, the substantive international law on 
trafficking, and then turn to case studies, one in Iraq, one in 
Bosnia and Herzegovina, and one in our own backyard just 
outside Washington, D.C.
    Trafficking in persons is a gruesome human rights 
violation, trapping men, women, and children in debt bondage, 
forced labor, and forced prostitution. Article 3(a) of the 
Protocol to Prevent, Suppress, and Punish Trafficking in 
Persons, Especially Women and Children, defines trafficking as 
the recruitment, transportation, harboring, and receipt of 
persons by threat or use of force, or any other means, for the 
purpose of exploitation.
    Research by Human Rights Watch and other human rights 
organizations has shown historically that States have treated 
victims of trafficking as illegal migrants, as criminals, or 
both, generally detaining them, prosecuting them, and then 
summarily deporting them. And while we do see some progress 
toward more victim and rights-focused policies, there's still 
much to be done.
    On August 19, 2004, insurgents kidnapped 12 Nepalese men 
traveling on the road from Amman to Baghdad. All 12 were later 
executed. A Chicago Tribune reporter, Cam Simpson, launched a 
6-month investigation into the events leading up to their 
abduction and deaths.
    The Chicago Tribune series, ``Pipeline to Peril,'' and I 
have a copy for you today, uncovered a trafficking network that 
stretched from the remote mountains of Kathmandu to U.S. 
military bases in Iraq.
    The chain began with recruiters in the men's villages who 
promised the men lucrative jobs in five-star hotels in Amman, 
Jordan. In exchange, they demanded enormous sums for up-front 
payments. Their families, desperate for the sons to find jobs 
abroad, took out loans, mortgaged the family farms, and paid 
interest rates of up to 36 percent per month.
    But the men, upon arriving in Jordan, instead of the luxury 
hotel jobs that they had expected, found that they were on 
their way to Iraq. They were stripped of their passports and 
held in apartments.
    They were passed from recruiter, to trafficker, to 
trafficker, and finally sent on the road to Iraq to serve at a 
U.S. military base for a subcontractor. Insurgents killed the 
Nepalese workers before they actually arrived at the U.S. base.
    The Department of Defense Office of Inspector General 
launched an investigation. But, troublingly, that investigation 
concluded that while it would appear that some foreign-based 
companies are using false pretenses to provide laborers to 
Halliburton subcontractors in Iraq, none of the allegations are 
against U.S. persons or U.S. contractors.
    There's no indication that the Inspector General actually 
delved into the issue of criminal complicity, or even criminal 
conspiracy, by U.S. persons or contractors. Indeed, there is no 
hint of any investigation into the involvement by any of these 
U.S. contractors.
    Instead, there's a conflation of criminal and civil law 
principles, a finding that there are ``no privities of contact 
between DoD and the foreign companies allegedly guilty of these 
trafficking practices, and therefore that the U.S. had no 
jurisdiction over the persons or the offenses.''
    But that's simply incorrect as a matter of law. Under the 
Military Extra-territorial Jurisdiction Act of 2000, the U.S. 
Government does have criminal jurisdiction over those who 
commit a crime, a felony that would be punished in the United 
States by up to a year, including trafficking crimes.
    The investigation also uncovered other troubling practices. 
Contractors routinely took and held the passports of third 
country nationals working on U.S. bases, forced them to live in 
substandard housing, and provided them with little decent food.
    Then General Casey issued an order demanding that 
contractors return the passports of third country nationals. 
Unfortunately Colonel Boyles, who was tasked with enforcing 
that order, testified before Congress in June 2006 that it was 
like pulling teeth to get the contractors to comply.
    So the bottom line is impunity, but that is just really 
business as usual. I would like to skip now to the case of 
Bosnia and Herzegovina, which is, perhaps, the poster child for 
impunity for defense contractors.
    Trafficking victims in Bosnia and Herzegovina, from 
Moldova, Ukraine, and other countries of the former Soviet 
Union had no idea that they would be trafficked into forced 
prostitution to serve trucker drivers, as well as peacekeepers, 
in Bosnia.
    In a 3-year investigation that I conducted for Human Rights 
Watch, researchers uncovered at least eight cases of U.S. 
personnel who allegedly purchased--purchased--trafficked women 
and girls as chattel. They purchased both their persons and 
their passports from local brothel owners.
    As in Iraq, the Department of Defense Inspector General 
confirmed that the allegations of trafficking were credible. In 
fact, their final report states ``the evidence suggests that 
DoD contractor employees may have more than a limited role in 
human trafficking, but we were unable to gather more evidence 
of it precisely because there are no requirements and no 
procedures in place compelling contractors to gather such 
information regarding their employees, or to report it to U.S. 
military authorities.'' That remains the case now years down 
the road.
    I'd like to now turn, briefly, to a domestic case. 
Recently, the ACLU filed a case against a Kuwaiti military 
attache here working in Washington, DC for trafficking three 
Indian women he enslaved in his home, according to the 
complaint. The ACLU has provided a written statement today, and 
I commend it to you.
    Diplomats who traffic their victims to the United States 
under the cover of special visas also engage in slavery and 
they do so with near impunity. The bottom line is that 
trafficking victims, whether trafficked by diplomats or by 
regular U.S. citizens, need attorneys. By our count, only 20 
cases nationwide have been brought under 18 U.S.C. 1595, which 
is the civil remedy created by the TPRA of 2003.
    Sadly, people trafficked by diplomats into the United 
States cannot use that as a remedy because those cases are 
routinely dismissed on the basis of diplomatic immunity.
    So let me just close by asking what is to be done, because 
I think that is the fundamental question that you posed at the 
beginning of the hearing, Senator Durbin. I have a series of 
detailed recommendations in my written testimony, but I'd just 
like to highlight a few this afternoon. I'm eager to work with 
you and your staff to implement the recommendations in full.
    First, we recommend that thorough investigations and, where 
appropriate, indictments, be done for trafficking for forced 
labor or forced prostitution by contractors and military 
personnel serving abroad.
    We believe that the T visa system should be amended to 
permit victims of trafficking who are the victims of 
contractors abroad to come to the United States to testify and 
to have access to T visa status with the hope of being able to 
adjust to regular immigration status.
    We'd like to see senior leadership in the Department of 
Defense assigned to combat trafficking, and we'd like to see a 
line item in the budget dedicated to trafficking in persons as 
well.
    We'd also like to call for an investigation of a lack of 
compensation for the executed Nepalese victims of trafficking 
under the Defense Base Act. Although they were killed several 
years ago, their families still have not been able to access 
any funds from the U.S. Government.
    I'll end there this afternoon, but I'd like to, again, 
thank you for inviting me to testify. I'd be happy to answer 
any questions that you might have.
    Chairman Durbin. Thank you. And without objection, the 
statement from the American Civil Liberties Union Women's 
Rights Project will be made part of the record.
    Our last witness is Holly Burkhalter, the vice president of 
Government Relations at the International Justice Mission, a 
human rights organization that helps rescue trafficking victims 
overseas.
    Before joining IJM, Ms. Burkhalter was the U.S. policy 
director of Physicians for Human Rights, and before that, 
Advocacy Director at Human Rights Watch.
    At the beginning of her career she worked on Capitol Hill 
for Senator Tom Harkin, and for the House Foreign Affairs 
Subcommittee on Human Rights and International Organizations. 
She is a frequent witness before Congress. We are happy to have 
her today. A widely published author on human rights issues, 
graduate of Iowa State University. Now I see the Harkin 
connection.
    Ms. Burkhalter. Yes.
    Chairman Durbin. Ms. Burkhalter?

STATEMENT OF HOLLY J. BURKHALTER, VICE PRESIDENT FOR GOVERNMENT 
   RELATIONS, INTERNATIONAL JUSTICE MISSION, WASHINGTON, D.C.

    Ms. Burkhalter. It works out that way, though the record 
should probably be corrected. I worked for Tom when he was in 
the House, which just goes to show that they were employing 
child labor on congressional staff in those days.
    [Laughter.]
    Thank you, Chairman Durbin. It's an honor to be here with 
my friends who are really the acknowledged experts on these 
matters in the United States. I'm honored to be associated with 
their testimony, as well as present my own.
    I don't know if you knew this, but 200 years ago yesterday, 
on March 25, 1807, the abolition of slavery in the British 
Empire was enacted into law. It was basically signed into law 
by the king. The only way you could have come closer to 
commemorate that occasion was to have your hearing on Sunday, 
and I appreciate the fact that you did not.
    But here we are, 200 years later, to work on completing the 
great work that your political ancestor, the great 
parliamentarian, William Wilberforce, began. William 
Wilberforce--reminding me of Senator Proxmire a little bit--
introduced the anti-slavery bill every year for 16 years until 
it was finally passed into law and enacted 200 years ago.
    Now, the man who really is dear to my heart was Thomas 
Clarkson, who is the father, as far as I'm concerned, of modern 
human rights NGO activism. It was his indefatigable campaigning 
throughout Europe and the United Kingdom that educated ordinary 
citizens about the great crime against humanity that was 
slavery.
    By the way, he had the task of distilling 2 years of 
hearings, over 3,500 pages of hearings, into a short account 
that would be accessible to members of parliament. I am feeling 
kinship with the man as I sit here, because I have a lot to 
say, now, and have about 2 minutes to say it.
    But I want to bring your attention, on behalf of IJM--and 
in so doing thank my colleague, Kelly Carter, who is a legal 
intern with IJM helping me to prepare this testimony--to the 
legal tools that are already in our grasp, as is fitting on the 
200th anniversary of a very important law that was exacted.
    I will discuss the Trafficking Victims Protection Act, that 
we've already discussed today, also the U.S. Trade Act with 
regard to preferences under the Generalized System of 
Preferences, and as well as make mention of the Millennium 
Challenge Account. All three are legal tools that are important 
instruments for ending modern day slavery.
    It is not so much the words of the law that need to be 
changed, although I do hear some of the recommendations. 
Rather, we need to see full and unvarnished implementation of 
the law that we already have.
    Let me start with TVPA. In my 25 years in the human rights 
field, I think it's probably the most effective human rights 
law, of many that have been enacted, that condition U.S. 
foreign assistance on the performance of governments that would 
be beneficiaries.
    I think the most important reason why is that the law does 
not require governments to end all crime within their borders. 
That is not the standard. They do not put forward an 
unattainable standard, nor do they require that poverty be 
eradicated in every country in the world where there's a 
trafficking program.
    The requirement is that there be a good-faith effort to end 
trafficking. For my money, a good-faith effort can actually be 
measured. It can be monitored, measured, and quantified in the 
form of, how is the government responding to the criminals who 
engage in the crime of trafficking?
    Trafficking is a different kind of crime than other crimes 
which my organization works on. We're a service organization 
which has field operations in 13 countries. We have all kinds 
of human rights cases, a lot of rape cases, a lot of common 
sexual violence against women and girls and boys, we do a lot 
of police abuse cases.
    But this crime is different. This is an economic crime. It 
is a crime where there are clear victims and there are clear 
perpetrators. The perpetrators are getting rich off of it. 
Thus, a deterrence that could be measured in the form of number 
of prosecutions and number of people that actually go to jail. 
They don't just get a hand-slap, they go to jail, and they 
would include officials that are colluding or turning a blind 
eye. And because it is an economic crime, the prosecutions have 
a disproportionate impact.
    Let me explain. If we were to deter rape and sexual 
violence in countries where it's just really epidemic, it's 
going to take a lot of prosecutions to kind of change the 
tolerance of that crime that is not economically motivated, for 
the most part. And we're seeking to do that in countries where 
that's the bulk of our case work, Guatemala, Uganda, Kenya, and 
elsewhere.
    But in the crime of trafficking in human beings, a couple 
of prosecutions really have a disproportionate impact. And 
that's why trying to assess government's alacrity in dealing 
with this stain upon the national honor can be measured, and 
should be measured, by the number of people that they're going 
after and the jail time that they get.
    I don't really see that happening. Countries that don't 
want to provide information don't provide information. We don't 
have any way to judge them. But it seems to me, if they want to 
continue to be in good standing under the minimum requirements 
in our law, they ought to be held to account in that regard and 
we ought to do something about that.
    Accordingly, we need more sort of political support to link 
the two pieces of work in the GTIP office at the State 
Department, the piece of work that is the reports, that are 
excellent, getting better every year, and then the piece of 
work that is the diplomatic recommendations, the foreign aid 
assessments, et cetera.
    Let me turn, now, to the Trade Act. Interestingly, a piece 
of legislation that I am proud to say I did a little work on 
back in 1988, which is the labor rights and worker rights 
conditionality on trade benefits, (duty-free treatment for 
developing countries to bring their products into the United 
States.)
    The standards are written differently than the TVPA, but 
it's the same category of crimes. It's slavery. It's labor 
slavery, it's child prostitution, it's child labor, and it's 
debt bondage and forced and bonded labor, almost the exact same 
category of crimes as named in the TVPA.
    We're not seeing, at the present time, the real, 
extraordinarily useful tool of the USTR holding hearings on 
some well-known violators and on some extraordinarily important 
export products that have been tainted with child labor. We're 
not seeing that kind of scrutiny that would really be helpful.
    I don't mean to bring a negative tone to the hearing, but 
in looking at the latest report that's available from the USTR, 
a quick glance indicates that in 2005 there did not appear to 
be a single labor rights, or workers' rights, or any slavery 
case even taken up for review.
    The only cases taken up for review by the Trade 
Representative were those brought by economic interests in the 
United States. I'm not saying that was an inappropriate thing 
to do, I just think we need to have a little support--
bipartisan support for a thorough look at the conditions of 
worker rights, and particularly forced labor slavery and child 
prostitution in some of our major trading partners. I would 
love to see those benefits linked to the tier status that we 
already have in motion.
    The third--oh, my goodness. I'm way over time. But I want 
to just glancingly mention the Millemium Challenge Account, 
because it's a lot of money and it goes to countries that have 
been found to be good actors in terms of governance. It's an 
inspired and brilliant idea to use the good offices of the 
United States' foreign assistance in very large amounts to 
support reform. Good governance includes anti-corruption 
efforts.
    The linkage between government corruption and trafficking 
and slavery is like this: you cannot traffick in human beings 
without the government at least turning a blind eye. In that 
way it's different than, say, bringing heroin across borders.
    This is people we're talking about, live people, my size. 
We've had cases of little girls in prostitution that were 
delivered to the people that bought them by the police.
    We have, on undercover camera taken by our undercover 
operatives posing as customers--our guys will literally 
negotiate police protection, you know, with a high-ranking 
police officer so as to pretend to take this child out.
    We should look carefully at trafficking and the work that 
governments are doing, because there are some who are 
prosecuting these cases, and jail time is coming to pimps, and 
brothel owners, and prosecutors, and labor traffickers, et 
cetera. Look at that in the context of MCA and you've really 
got something to measure, and a darned incentive for 
governments to do well.
    Well, in closing, I would just say that--that writing the 
good law is just the first step. And making the law live for 
the people who need it the most is another matter.
    You know, the law that was enacted 200 years ago yesterday 
didn't actually start to have value and meaning in the lives of 
men, women and children who were chained aboard ships that were 
transiting the middle passage until the Government of Great 
Britain sent ships out to interdict them, literally.
    The difference between life and death and freedom and 
slavery was when someone actually sent a ship out there. And 
that didn't happen really effectively for many years.
    The law was the beginning. The work, the work to save human 
lives, is what followed. This hearing's a part of that, and I 
thank you very much. Sorry to go over time.
    [The prepared statement of Ms. Burkhalter appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much.
    Let me acknowledge, also, the presence of Dr. Helga Konrad, 
whom I met earlier. Raise your hand. Thank you for joining us. 
She's the former Austrian Federal Minister for Women's Issues 
and served as a Special Representative on Combatting 
Trafficking in Human Beings at the Organization for Security 
and Cooperation in Europe from 2004 to 2006. Thank you so much 
for joining us.
    My apologies, first, to the panel of witnesses for asking 
you to restrict your comments on this to five minutes. It's 
almost impossible. It reminds me of the time that I was invited 
to speak and the host said: ``Take the first 3 minutes to 
highlight your Congressional career.''
    [Laughter.]
    And I said, ``three minutes? How can I do it in 3 minutes? 
'' He said, ``Speak slowly.''
    [Laughter.]
    I know that each of you could have spoken a lot longer. And 
let's hope that during the questioning period, that we can get 
into a more in-depth discussion about some of the aspects that 
you raised.
    Before we get started, Ms. Becker, you made a distinction 
which I want to put on the record here between smuggling and 
trafficking, two different things. Because many of the things 
we've heard here suggests that people are being brought to the 
United States illegally and others not illegally. Could you 
make that distinction for the record?
    Ms. Becker. Yes, Senator. Human smuggling, as you know, is 
a crime that involves the deliberate evasion of immigration 
laws. In a human smuggling case, you have individuals who are 
actually moved across international borders.
    In contrast, human trafficking, despite what the name 
suggests, does not necessarily involve the movement of people 
across an international border, or even across State lines. 
Human trafficking is really about force, fraud or coercion, and 
that is the key element that describes human trafficking.
    Chairman Durbin. Thank you.
    Let's get into trafficking victims' services. I think 
that's come up several times. Ms. Kaufka recommended that 
trafficking victims be eligible for a T visa, Federal benefits, 
even if law enforcement declines to investigate or prosecute 
the case. Under current law, a victim can generally only 
receive Federal benefits if there's an ongoing investigation or 
prosecution.
    Ms. Becker, would this change in the law help you to have 
witnesses step forward and to prosecute cases of trafficking?
    Ms. Becker. Let me say at the outset, Senator, that we 
think the system currently is working and we are being able to 
find victims using our victim-centered approach. And just to 
clarify, under the TVPA and the regulations, victims of a 
severe form of trafficking who are willing to cooperate with 
law enforcement are entitled to: (1) assistance as ``potential 
victims'', in other words benefits even before they are 
certified by Health and Human Services; and, (2) benefits 
whether or not there is a prosecution. There are mechanisms in 
place to provide some services to these victims.
    In addition, Senator, the anecdote raised by Ms. Kaufka, 
which is a disturbing one about Padma, is, in the Justice 
Department's viewpoint, not a systemic problem. There may be 
individual instances where there has been delay, Senator, but 
that is certainly not how we train the thousands of Federal, 
State, and local law enforcement and NGOs. That is not the 
policy that we are pursuing at the Justice Department.
    Chairman Durbin. Ms. Kaufka, what is your response?
    Ms. Kaufka. It is correct that victims do have access to 
some services before they are formally recognized. ``Formally 
recognized'' means that they are given what is called 
``continued presence'' or a T visa, which make victims eligible 
for public benefits, permission to work legally in this 
country, and legal status.
    These protections are not available to our clients before 
they can prove that they have cooperated in an investigation or 
prosecution of a case.
    There is limited funding available to victims to provide 
for emergency care: housing, food, shelter, and some mental 
health services. But that is temporary assistance and, in 
Padma's case, will expire after a certain period of time.
    Chairman Durbin. So while she was waiting, did you say a 
year?
    Ms. Kaufka. Yes.
    Chairman Durbin. From the time that she reported----
    Ms. Kaufka. She was ineligible for public benefits, she had 
no health insurance, she was not given permission to work, and 
she had no legal status.
    Chairman Durbin. For a year?
    Ms. Kaufka. For a year, both she and her daughters.
    Chairman Durbin. Let me ask you about the family members. 
You make a good point, that if a victim feels that if their 
family members are going to be abused if they speak up, you say 
bring the family members, unite them, so that will help the 
prosecution in those cases.
    Ms. Kaufka. Correct.
    Chairman Durbin. Is that your experience?
    Ms. Kaufka. Yes. We had a very successful case that was 
prosecuted by the Department of Justice recently out of 
Milwaukee, with a client who was a victim of domestic 
servitude. She was trafficked and enslaved for 19 years. For 
almost two decades, she had not seen her family.
    Chairman Durbin. Nineteen years?
    Ms. Kaufka. Nineteen years. Correct. And there were some 
threats made to her family. The Department of Justice assisted 
in paroling her parents into the U.S. for the last few months 
of the investigation and trial.
    Her parents provided an immense amount of support to my 
client. She stated that she doesn't know if she would have been 
able to do it without her parents here, knowing that they were 
safe, and supporting her in the process.
    Chairman Durbin. Ms. Becker, what do you think about that 
suggestion?
    Ms. Becker. Senator, I think Ms. Kaufka mentioned the 
Calimlim case, which is one where we have been able to bring 
families, unite families, as the process is going on. I will 
say that we have also done something similar while a victim 
is--before the victim has gotten a T visa while they're still 
under continued presence.
    And also, under current law there is an opportunity for 
victims' families to be able to come to the United States as 
well an receive a derivative T visa.
    Chairman Durbin. They can come to the United States?
    Ms. Becker. Yes. You know, the visa program, of course, is 
administered by the Department of Homeland Secunty. The Justice 
Department's role is very limited. We investigate and prosecute 
these cases.
    We also, wherever we can, provide supporting documentation 
for the victim pursuant to their request for continued presence 
or for a T visa. Part of the T visa program provides that they 
are able to have an opportunity to request their family come 
over.
    Chairman Durbin. Ms. Kaufka, has that been your experience?
    Ms. Kaufka. It is true that, under the statute, individuals 
who are eligible for a T visa can also apply for derivative 
status for qualifying family members. However, that process, 
even the application for a T visa, often comes after the 
initial investigation and prosecution of the case, after a 
significant period of time. And in the examples that I provide 
in the written testimony and talked about today, often that 
support from family members needs to come sooner.
    Some individuals may not be eligible for derivative status. 
For example, in the Calimlim case, because the victim was not a 
minor, her parents were not eligible to receive derivative 
status. Therefore, at the conclusion of the case they did 
return home to the Philippines. But in the meantime, again, the 
family members provided a tremendous amount of support to her 
and assisted her in providing ongoing cooperation with law 
enforcement in the prosecution of the case.
    Chairman Durbin. I'd like to ask the panel, but start with 
Ms. Kaufka, how do you find these trafficking victims?
    Ms. Kaufka. About half of our cases come to our 
organization through service providers and half through law 
enforcement. We, as well as the other service providers we work 
with, provide ongoing training, often in collaboration with the 
Justice Department and other law enforcement agencies, to 
provide outreach. We offer training on the definitions of 
trafficking versus smuggling, and we educate groups on some of 
the issues that my colleagues on the panel have discussed.
    For example, in Padma's case, it was a women's shelter that 
we previously trained that recognized this was a trafficking 
case, versus a domestic violence case and referred the client 
to us.
    Chairman Durbin. I guess I'm a little stunned by the 
examples you're giving in Illinois. It just shows how naive I 
was going into this hearing that this is happening right in the 
State that I represent.
    Ms. Kaufka. Right. It's happening in Chicago, in the 
suburbs, and in small towns.
    Chairman Durbin. Yes. I assume that it's happening in many 
other places across the country as well.
    Ms. Kaufka. Correct.
    Chairman Durbin. What is the scope of this problem in 
Illinois, can you say?
    Ms. Kaufka. We at the National Immigrant Justice Center 
have represented over 70 international victims over the last 3 
years. I don't think anyone can actually answer the question of 
how many victims there are.
    Victims of trafficking are not a self-identifying 
population. No one is raising their hand and saying, ``I'm a 
victim of slavery and trafficking,'' which is why I think it's 
very important for all of us that are here today to continue 
doing the work that we're doing. We must enhance victim 
protections and prosecute traffickers, and provide good 
training and outreach on the issue.
    Chairman Durbin. Ms. Becker, can you help me? I'm trying to 
figure out, if you're on the prosecutorial side of this thing 
and you want the cooperation of the victims, you need the 
cooperation of the victims for anything to go forward, and yet 
the victims may not be eligible for some benefits unless you 
have an ongoing investigation or prosecution. So would there--
would it make any sense to eliminate that requirement to 
provide some of these services and benefits?
    Ms. Becker. Well, Senator, to clarify, the Justice 
Department's role is to provide the supporting documentation, 
as I said, that the person--that the victim, No. 1, is a victim 
of a severe form of trafficking, and No. 2, is cooperative with 
reasonable requests by law enforcement during the course of the 
investigation.
    Even if the case is never prosecuted, that victim is still 
entitled to benefits and may apply for a T visa. A T visa is 
sought by the victim while continued presence is sought by law 
enforcement. Continued presence is one year in duration and a T 
visa is now 4 years in duration. Both are renewable.
    Chairman Durbin. Let me ask about one other aspect of the 
TVPA, and perhaps Ms. Burkhalter or Ms. Vandenberg can speak to 
it. The reauthorization in 2003 included a civil cause of 
action for trafficking victims to sue the perpetrators in U.S. 
courts.
    Since that time, over 1,000 victims have received T visas, 
but only a handful have brought civil lawsuits. Could anyone on 
the panel comment about why there have been so few civil 
lawsuits?
    Ms. Vandenberg. Senator Durbin, there is--there's an effort 
now to try and increase the civil legal resources available to 
trafficking victims, but I think it is clear that the service 
providers don't have adequate funding to provide the full 
panoply of legal services that the victims need.
    So while Katherine Kautha and her colleagues do an immense 
amount in assisting victims make it through the criminal 
process, holding their hands in some sense, there's not enough 
funding and not enough manpower or womanpower to actually take 
these cases all the way through civil cases. So many of the 
service providers now turn to lawyers at law firms and there's 
an effort nationwide to try and train pro bono attorneys to 
take these cases.
    But unfortunately that's not a panacea, because it still 
requires quite a lot of the service provider's time to 
supervise the outside attorneys and to make sure that they do 
the cases appropriately without retraumatizing the victims.
    Chairman Durbin. It sounds like there might be a question 
as to the status of the plaintiff during the pending civil 
lawsuit, whether they're going to be deported or face some 
question about whether they can remain in the United States.
    Ms. Vandenberg. That's absolutely the case. And in the 
trafficking victim cases that I have dealt with, defense 
attorneys have actually responded that our client has no 
standing because she has no immigration status.
    Chairman Durbin. Is the law clear on that issue?
    Ms. Vandenberg. I believe it is. I think that that's simply 
a red herring, but one that they throw out quite frequently.
    On the issue, though, of uncertainty on immigration status, 
I believe that it is still the case, and I would be interested 
to hear from the Justice Department whether it is still the 
case, I don't believe that the regulations have been issued yet 
to permit trafficking victims to adjust their status. So T 
visas only last for 3 years.
    So what happens to those victims after 3 years when they'd 
like to turn into permanent residents, but there aren't 
regulations appropriate to permit them to do so?
    Chairman Durbin. Ms. Becker, is that the case?
    Ms. Becker. Senator Durbin, I'm not familiar with the 
status--current status of the regulations. I think those may be 
under the jurisdiction of another Federal agency.
    Chairman Durbin. If you would help us make that a question 
on record and make it part of our proceedings.
    Let me speak about the issue of unaccompanied children, the 
most vulnerable victims. Ms. Kaufka has proposed that whenever 
a child is discovered to be a trafficking victim, law 
enforcement should promptly contact HHS in order to supply 
benefits and assistance. She talked about one of her clients, 
Sonia, 15 years old, trafficked into a brothel in the U.S. from 
El Salvador.
    When Sonia was rescued from the brothel, instead of 
receiving Federal assistance she was put into deportation 
proceedings. Ms. Kaufka, how long did it take for Sonia to be 
taken out of deportation and be referred to your office?
    Ms. Kaufka. The entire process took about six to 9 months.
    Chairman Durbin. What hoops did a child victim have to jump 
through before receiving eligibility for benefits?
    Ms. Kaufka. A number of hoops, actually, one even in 
identifying her as a victim of human trafficking while she was 
at a facility for unaccompanied minors and in deportation 
proceedings in addition to building trust with her to learn of 
her true circumstances.
    Second, we faced a hurdle in convincing the proper 
authorities that she was, indeed, a victim. When she was picked 
up by authorities, she did not explicitly say that things 
happened to her, although she was removed from a known brothel. 
In fact, the brothel owner was charged with harboring, and, I 
believe, other charges relating to prostitution.
    The respective authorities--I believe Department of 
Homeland Security--would not recognize her formally as a 
victim. We had to go through HHS, which in turn had to consult 
with the Department of Justice and Department of Homeland 
Security to issue her what's called an eligibility letter to 
make her eligible for services, including foster care. This 
process did not adress her legal immigration status. It's very 
complicated. She was finally able to access foster care and 
other services while we were working on her immigration status, 
specifically a T visa.
    Chairman Durbin. So here you have a frightened 15-year-old 
who has been enslaved in a brothel, finally comes forward to 
try to find some justice, and runs smack dab into three 
different Federal agencies, if not more, that are looking at 
her from different perspectives: the Department of Justice, as 
a witness in a prosecution; Health and Human Services as a 
child; and Homeland Security as someone who's here 
undocumented.
    Ms. Kaufka. Correct.
    Chairman Durbin. Do you have any recommendations on how we 
might have made life a little easier for Sonia?
    Ms. Kaufka. I think it would have helped to have an 
advocate there for her right away. This should be done whenever 
law enforcement encounters minors who may be potential victims 
of trafficking. In this case, I used a--what I think is an 
obvious example of a known brothel, a known pimp, and where a 
child is removed from that situation.
    However, I also work with a number of other children who 
came into contact with law enforcement authorities who did not 
recognize the potential trafficking situation and who, I 
believe, should have known better. These authorities didn't 
have the proper training to conduct a proper screening to 
distinguish the child as a victim of human trafficking versus 
the criminal activity that they child was subsequently charged 
with.
    I would recommend prouding an advocate or legal counsel 
there immediately in addition to a referral to the Department 
of Health and Human Services, which would be the appropriate 
agency to deal with children and make the proper referrals.
    Chairman Durbin. So there's no guardian-type person who 
steps into this situation currently under the law?
    Ms. Kaufka. Under the law right now, if there is a person 
believed to be an unaccompanied minor, the Office of Refugee 
Resettlement would takes custody or guardianship of the child, 
while the child is often placed in removal proceedings or is 
maybe seeking other types of legal immigration relief.
    Chairman Durbin. Let me move to this question of government 
contractors. Ms. Vandenberg, you raised that, I think, very 
effectively here. I couldn't help think about when I was 
reading, particularly the incident involving Bosnia. I couldn't 
help think about the current controversy going on in Japan, 
where Korean women are asking for an acknowledgement by the 
Japanese, that they were exploited during World War II for 
Japanese troops. It's obviously a very painful chapter in the 
history of both countries.
    But when you see these women, now very advanced in age, 
talking about their exploitation, it really touched me when you 
started talking about American contractors, paid for with 
American tax dollars, who are now being found, or being 
accused, of exploiting, in the case of Bosnia, women under like 
circumstances. Did that parallel strike you?
    Ms. Vandenberg. Well, ironically, the comfort women case is 
yet another case that was dismissed before the U.S. Federal 
courts when the comfort women tried to find a remedy in U.S. 
Federal court under the Alien Tort Statute.
    But the other parallel that you bring up is the victims. 
And I think it's very important to focus on the victims and on 
their human rights, and on the perspective that they bring to 
this. And I raise that because I found that the investigations 
conducted in Bosnia and Herzegovina completely ignored the 
victims.
    The perpetrators, the men who bought women from the 
brothels, most of them buying them from a brothel owner named 
Debeli, bought their passports, sometimes bought them together 
with weapons from the brothel owners. Those men said that they 
had ``rescued'' the women, that they had purchased them out of 
sexual slavery. No one bothered to actually interview the 
women. No one asked them whether they had simply traded one 
owner for another owner.
    And that is why it is so important--I'd like to echo the 
point that Ms. Kaufka just made about training. There is, I 
think ineffective training at this point among DoD 
investigators who are tasked with investigating these cases. 
They need to take more care to interview the victims and to 
discover the victims' perspectives.
    One woman who was released by a contractor just before he 
was repatriated to the United States on weapons charges, not 
because he had purchased her but because he had purchased a 
weapon alongside her, he was sent home to the United States.
    He released her and gave her back her passport before--
before he left. She wandered into a International Police Task 
Force station months later and said that she had lived with him 
like a prostitute and that she--that he had held her passport 
the entire time.
    So from her perspective, he was just another trafficker. 
And yet, I feel like the Department of Defense investigators 
were inclined to believe his story that he was a rescuer.
    Chairman Durbin. So the firearm violation, he was being 
held responsible on a criminal basis, but not for any violation 
relative to this woman?
    Ms. Vandenberg. Well, Senator Durbin, to say he was held 
responsible for a criminal violation would probably be an 
exaggeration.
    Chairman Durbin. Overstating.
    Ms. Vandenberg. Because there have been no prosecutions 
whatsoever. There have been no indictments. The Military 
Extraterritorial Jurisdiction Act of 2000, already in effect 
for 7 years, has been used twice, and not once for a 
trafficking case, not once.
    Chairman Durbin. Ms. Becker, I'm going to ask you a 
question in a moment, but I want to recount what we've heard 
here from Ms. Vandenberg and others.
    In the 2005 reauthorization of the Trafficking Victims 
Protection Act, jurisdiction was expanded to allow U.S. 
prosecutions of U.S. Government employees or contractors who 
engage in human trafficking abroad. But as Ms. Vandenberg's 
pointed out in her testimony, no one has been prosecuted.
    Now, this writer from the Chicago Tribune, Mr. Cam Simpson, 
wrote a series of articles in the Tribune about a trafficking 
network that stretched from Kathmandu in Nepal to U.S. military 
bases in Iraq.
    Others have written about a Defense Department contractor 
in Bosnia called DynCorp--I hope I pronounced that correctly--
which employed eight people who bought women from brothels in 
1999 and 2000 and used them for sexual and domestic services, 
and there have been no prosecutions.
    Ms. Becker, you worked in the General Counsel's Office at 
the Defense Department before joining the Justice Department. 
Can you tell us why the U.S. Government hasn't done more to 
punish U.S. contractors in Iraq and other foreign countries who 
engage in human trafficking?
    Ms. Becker. Yes, Senator. While I was working at Department 
of Defense in the General Counsel's Office, I did not have 
responsibility for human trafficking, I had a different 
portfolio, so I cannot speak to the Department of Defense's 
actions in that regard.
    I can say that we do have a number of investigations 
involving government contractors in foreign countries. As you 
know, there is a 5-year statute of limitations for general 
crimes, including this one. But we are--I can't say anything 
beyond that, Senator, because I wouldn't want to jeopardize any 
potential prosecution.
    Chairman Durbin. I certainly don't want to jeopardize any 
pending prosecution, because there haven't been many. We hope 
that some will take place.
    I'll go back to a point made by Ms. Burkhalter. This is, by 
and large, an economic issue. It is much more than that, of 
course. It's a moral issue. But there's a lot of money involved 
in this. And if we start making it a costly undertaking, 
perhaps we can change the economics of it.
    In her testimony, Ms. Vandenberg proposed that victims 
trafficked by the United States' contractors or employees 
abroad be permitted to come to the U.S. to testify and receive 
victim benefits like the T visa. Under current law, they're not 
allowed to do so.
    Ms. Becker, do you think that the TVPA should be revised to 
permit these victims to come to our country?
    Ms. Becker. Thank you, Senator. That is a proposal that we 
recently received on Friday. I would--I would like the 
opportunity to give that request additional thought.
    Chairman Durbin. Would you get back to us on that? I'd like 
to know the position of the Department on that.
    Another proposal by Ms. Vandenberg is to require the 
Justice Department, in its congressionally mandated annual 
report on U.S. Government anti-trafficking activities, to 
include an evaluation of Defense Department efforts.
    I agree that would be valuable, and I would hope that the 
public could use it to gauge how much progress our Department 
of Defense is making in implementing its zero tolerance policy 
on trafficking.
    Ms. Becker, do you have any thoughts, or would you like to 
wait and make sure you officially state the Department position 
on requiring an annual Department of Justice report to include 
a section on the Department of Defense's anti-trafficking 
activities?
    Ms. Becker. Yes, Senator, that is obviously something that 
we'd want to consult with the Department of Defense with.
    Chairman Durbin. I hope you will. It is ironic that we are 
now policing our own departments of our government to see if 
they're doing everything they're supposed to do on anti-
trafficking, but I think that point has been raised very 
effectively.
    Ms. Vandenberg, on that series that Mr. Simpson wrote, it 
involved, you said, Halliburton, or Kellogg, Brown & Root, one 
of the companies?
    Ms. Vandenberg. That was the prime contractor. Yes, 
Senator. But the actual allegations that Mr. Simpson made had 
to do with subcontractors who were below at several tiers.
    Chairman Durbin. And that is, I think, where it gets 
complicated legally.
    Ms. Vandenberg. Well, it gets complicated, but not as a 
matter of criminal prosecution. It's complicated in terms of 
sorting out the relationships and who was employing whom, but 
under MEJA, subcontractors in any tier are also covered.
    Chairman Durbin. The acknowledgement by our military in 
Iraq that these contractors had to give back the passports of 
those working for them seems to be an indication they realized 
there's a problem.
    Ms. Vandenberg. I believe so. And yet, it's troubling that 
the Department of Defense Inspector General's report seemed 
limited, and the investigations seemed limited, to these 12 men 
and whether there was criminal responsibility for these 12 men, 
because in the course of their investigation they interviewed 
hundreds of third country nationals and didn't find a basis for 
any criminal prosecution on the facts that they uncovered 
relating to all of these other third country nationals, even 
though they discovered widespread abuses, including seizing of 
passports.
    Chairman Durbin. Another issue which was raised here and I 
think I'd like to speak to, is this whole question of human 
trafficking right here in the Nation's Capital, or nearby, by 
foreign diplomats.
    This issue was discussed in an article entitled ``The 
Slaves in Our Midst'' by Colbert King in the Washington Post, 
National Public Radio has reported on a lawsuit recently filed 
here in Washington, alleging a Kuwaiti military attache forced 
three women from India to serve as domestic employees and child 
care providers against their will. They worked more than 15 
hours a day, earning less than 60 cents an hour.
    One of the women said she was struck in the head by the 
diplomat's wife, once with a wooden box and another time with a 
package of frozen chicken.
    Regardless of the merits of the suit, it's likely to be 
dismissed on diplomatic immunity grounds, as have other similar 
cases. According to the NPR story, there have been more than 40 
instances of domestic servitude involving diplomats, but no 
convictions.
    One proposal to address this problem has been made by John 
Miller, who, I mentioned earlier, worked at the State 
Department in the anti-trafficking office. He's proposed the 
State Department rescind the 2,000 personal servant visas it 
issues each year. He argues that foreign diplomats serving in 
the United States should hire Americans for their domestic 
work.
    Mr. King argued in his article that the State Department 
should stop recommending immunity for diplomats in lawsuits 
brought by domestic servants. He said the State Department 
should define domestic service as part of the professional and 
commercial activity exception to diplomatic immunity under the 
Vienna Convention on Diplomatic Relations. This might lead 
Federal judges to dismiss fewer lawsuits.
    Ms. Becker, Ms. Vandenberg, what are your thoughts on these 
proposals?
    Ms. Becker. Senator, with respect to the--to the diplomatic 
immunity, that is a State Department issue. Certainly I can 
tell you with respect to diplomatic immunity--the Justice 
Department cannot prosecute somebody who has diplomatic 
immunity.
    That being said, the Justice Department has brought cases 
involving diplomats, where diplomatic immunity has not been an 
issue. For example, in the District of Massachusetts, we 
recently brought a case involving a foreign national from Saudi 
Arabia who had a domestic labor trafficking case there, and 
that matter was resolved through a guilty plea.
    Chairman Durbin. What do you think, Ms. Vandenberg?
    Ms. Vandenberg. As I recommended in my testimony--in my 
written testimony, I would say that there needs to be a GAO 
study on this issue, and I say that for two reasons. There is a 
core group of lawyers and civil attorneys who try to bring 
cases for victims of trafficking and find their efforts 
thwarted by the State Department, unfortunately.
    Those--those advocates have called the State Department and 
tried to get the State Department to respond, and unfortunately 
those advocates have also called--we have also called law 
enforcement and law enforcement does not always respond because 
they hear the word ``diplomat'' and go running for cover. So 
it's--it's an enormous problem. It is an area of tremendous 
impunity.
    I think it unlikely, based on the filing that the 
Department of State just made in the Gonzales case, the case 
that Colby King wrote about, the Department of Justice has 
recommended that that case, which is a worker exploitation and 
not a trafficking case, be dismissed on grounds of diplomatic 
immunity.
    I would ask that the Department of Justice be far more 
aggressive in trying to get waivers of diplomatic immunity and 
prosecute these cases because it is absolutely shameful that 
slavery is occurring in the United States and in Washington, DC 
in the suburbs, slavery that we wouldn't tolerate if it were 
being done by American citizens.
    Chairman Durbin. I'm going to pursue that GAO report that 
you've recommended. I also have to say that we have a 
jurisdictional issue between committees, and I'm going to ask 
Joe Biden of the Foreign Affairs Committee about the policy 
aspects, because whatever we do to diplomats here, we can 
expect to be done to us overseas, so we have to follow through 
and find out what impact that might have.
    Certainly I'm not suggesting any American diplomat is 
involved in trafficking, but if you restrict whom they can 
employ in an embassy, we should expect to run into the same 
restrictions in terms of our own employment standards abroad.
    Ms. Vandenberg. And Senator Durbin, we lawyers who are 
working on behalf of victims trafficked by diplomats are very 
sensitive to that point of view, which has been raised by the 
Department of State.
    And we're actually trying to work creatively at this point, 
both with the Department of Justice and with the Department of 
State, to try and find remedies that are perhaps unconventional 
or would provide some sort of justice for these victims 
without--without running flat into the issue of immunity.
    Chairman Durbin. I'd like to ask the panel to consider 
another issue which came up in the hearing we had earlier on 
genocide. It's, I guess, euphemistically known as the ``safe 
haven'' issue. We have a dual standard when it comes to the 
people we prosecute for wrongdoing, those who've committed 
crimes overseas.
    If a person has been guilty of torture, material support 
for terrorism, terrorism financing, the taking of hostages, and 
many other Federal crimes, we allow for the extraterritorial 
jurisdiction of the United States. In other words, that person 
does not have to be a citizen of the United States, nor does he 
have to have committed that crime here in the United States. 
The fact that he would set foot on American soil makes him 
subject to prosecution.
    We use the example of Chucky Taylor of Liberia, who 
decided, after being guilty of torture in his own country, to 
come here and use some of his ill-gotten gains to buy a nice 
house in Florida. Well, he's now facing prosecution for it.
    We found that when it came to genocide, that those who were 
engaged in genocide in Sudan could travel with impunity to the 
United States. There was no extraterritorial jurisdiction.
    Now I'd like to ask all of the members of the panel who 
would like to comment whether they believe that the TVPA should 
be revised so that non-U.S. citizens who engage in human 
trafficking abroad can be prosecuted if they come to the United 
States. Should the United States' law be changed to create 
extraterritorial jurisdiction in the area of human trafficking?
    Ms. Vandenberg. I'd like to address that, briefly, by 
talking about one change in the law that we succeeded in making 
in 2005, which was essentially an extension of MEJA so that we 
could prosecute employees of other agencies.
    MEJA only covered, at that stage, Department of Defense and 
those with a nexus to the Department of Defense. We found that 
contractors from the Department of State were also accused of 
allegedly buying women from the brothels. So the TVPRA of 2005 
does expand that jurisdiction.
    The question of whether jurisdiction should be expanded to 
cover everyone, frankly, I haven't considered it and I'd want 
more time to think about it, if we could get back to you on 
that. I think the community of non-governmental organizations 
would like to consider that as an option, certainly.
    Chairman Durbin. All right.
    Any other comments? Ms. Burkhalter?
    Ms. Burkhalter. IJM only works on victim relief and 
perpetrator accountability abroad. We don't do domestic cases. 
But in my many, many, many years in Human Rights Watch and 
Physicians For Human Rights, I dealt with the issue of genocide 
a lot.
    I remember having--during the Rwanda genocide, serving 
papers, since I was not the lawyer in the case--wasn't a lawyer 
at all, as a matter of fact--to one of the militia leaders at 
the height of the genocide, Jean Bosco Barayagwiza, who was 
later indicted by the tribunal, and serving him his papers on a 
class action lawsuit we did on behalf of a bunch of Tutsis in 
the United States who lost their entire families.
    But on the question of extraterritorial jurisdiction, on 
our kinds of cases we do a lot of American and European 
pedophile cases against local kids in the countries where we 
work. We've done some of these cases in Asia, and some in Latin 
America.
    The PROTECT Act, of course, has been great, and that's a 
fairly new legal tool in the hands of human rights activists 
which allows Americans engaged in crimes abroad to be 
prosecuted back home. We just--you're not talking about that, I 
know. But it is a useful thing.
    We just worked on a case this fall of Terry Smith, who is 
an American pedophile who was also violating young kids and 
offering 13-year-old kids in Cambodia, which our undercover 
operators discovered, got our contacts in the Cambodian police 
to pick him up. They did a great job of it. But he later 
managed to get out of jail on alleged health grounds.
    Our investigators, working through Interpol, learned that 
he was wanted on charges of abusing children in the United 
States in the State of Oregon and he--when he decided to leave 
Cambodia after his short stint in jail, Federal marshalls, in 
cooperation with the Cambodian authorities, were there to pick 
him up. He's now facing trial in the United States.
    Chairman Durbin. But the case that I'm talking about--I 
hate to interrupt you.
    Ms. Burkhalter. I'm sorry.
    Chairman Durbin. But what I'm going after is this. Let's 
assume we have a notorious trafficker from a foreign country 
who has never been alleged to have done anything in the United 
States.
    Ms. Burkhalter. Right.
    Chairman Durbin. No trafficking in the United States, no 
violation of law in the United States, but is well known to 
have been a trafficker, perhaps prosecuted for it, in a foreign 
country, who now, because of this economic crime, is very 
wealthy and decides he wants to live in the United States.
    Ms. Burkhalter. Right. Well, I can't speak for IJM, so I'll 
speak personally.
    Chairman Durbin. Can we----
    Ms. Burkhalter. I think there----
    Chairman Durbin. If I might finish.
    Ms. Burkhalter. I think there ought to be universal 
jurisdiction for crimes against humanity, and I think 
trafficking and slavery are crimes against humanity.
    Chairman Durbin. Well, I think that's where I'm going, too. 
To think that the United States could somehow be a safe haven 
for that individual to live the rest of their natural lives in 
luxury because of their ill-gotten gains doesn't seem 
consistent with the treaties we entered.
    Ms. Burkhalter. Well, and you mentioned the--you mentioned 
the fact that torture is a crime for which there is universal 
jurisdiction. And in our experience, there has never been a 
slavery case or a trafficking case that does not involve 
constant violent abuse and torture of the victims.
    Chairman Durbin. So there might be another angle.
    Ms. Vandenberg. Senator Durbin, if I might just add 
something. At this point, the record of prosecutions, based on 
investigations conducted abroad--again, using the contractor 
example--is not good.
    And so I would reiterate, if you move in the general 
direction of universal jurisdiction, there needs to be some 
facility, some vehicle, to bring witnesses and victims to the 
United States so that they can testify.
    Ms. Burkhalter. And there need to be resources to 
investigate those crimes abroad.
    Chairman Durbin. Ms. Becker, would you like to comment on 
this?
    Ms. Becker. Yes, just a couple of comments, Senator. First, 
you know, we currently have cases where we do have victims and 
witnesses abroad, and we have worked with OIA, International 
Affairs in the Criminal Division, in order to get MLATs and use 
other mechanisms such as an S visa in order to get the 
witnesses that we need to come to the United States to testify 
in particular cases.
    I also wanted to mention, in the case that you had 
described, Senator, there may be current options as well in 
order to ensure that a non-U.S. citizen who engaged in human 
trafficking abroad does not find the United States to be a safe 
haven.
    For example, if the country where that person is originally 
from has a law against human trafficking and we have an 
extradition treaty, we could, of course, extradite that 
individual to the foreign country.
    Chairman Durbin. Let me ask you, Ms. Becker. Are you 
familiar with the GAO report of July, 2006 relating to our 
prosecution of U.S. trafficking overseas?
    Ms. Becker. I am aware that the GAO issued a report. I am 
only vaguely familiar with the specifics of it.
    Chairman Durbin. I'm going to ask you if you'll ask the 
Department to respond to this question then, and I won't ask 
you at this moment. This is the report, which I'm sure is 
easily available.
    But the report concluded, ``More than 5 years after the 
passage of the landmark antitrafficking law, the U.S. 
Government has not developed a coordinated strategy to combat 
trafficking in persons abroad, as called for in a Presidential 
directive, or evaluated its programs to determine whether 
projects are achieving the desired outcomes.''
    I'd appreciate it very much if you could ask the Department 
if they would respond to this report, which was released a year 
ago. But I'd like to have an official response, if we could, to 
that as well.
    The TVPA requires the State Department to issue an annual 
report that ranks countries around the world as to their anti-
trafficking activities.
    And I'm going to ask all the panelists, how effective has 
the annual Trafficking in Persons office report been in holding 
foreign countries accountable in the fight against human 
trafficking? Has the U.S. Government imposed sanctions on any 
countries for their failure to make adequate progress? If 
anybody knows.
    Ms. Burkhalter. Well, the--what we have found in some of 
the countries where we work is that the threat of sanctions for 
countries that are on tier three has been extremely useful, 
particularly for countries that are--really desire U.S. foreign 
assistance.
    And when a block of U.S. foreign aid, non-humanitarian aid, 
is potentially at risk, combined with good, strong, solid 
private diplomacy with a good Ambassadorial presence and 
staffed there, it can be very useful.
    My colleague and boss, Sharon Cohen says, and not meaning 
to make light of it, that the best time to be a victim of 
trafficking is in the period leading up to June when the report 
is being compiled, because in some countries where, you know, 
you're demanding--particularly the statistics on prosecutions, 
local prosecutions--because you don't get deterrence of the 
crime unless you get prosecutions--that literally, all of a 
sudden, will have--we work with local law enforcement.
    We aren't local law enforcement, but we work with them, 
imperfect and badly trained and under-resourced as they 
sometimes are. There are police of good will everywhere. And 
all of a sudden our effort, will get a little boost when our 
local diplomats, those of good will who take this very 
seriously indeed in many embassies around the world, come 
around asking for information.
    I'm not going to speak about any specific countries. We're 
operational, and I would not embarrass those officials and 
leaders of good will who make it possible to bring cases. But I 
would--I would speak to you privately and your staff privately 
about places where a bit more candor would be much appreciated.
    Chairman Durbin. Well, since you feel a little 
uncomfortable in reading the names of the countries, I'll just 
go ahead and read them. They are tier three countries in the 
June, 2006 Trafficking in Persons report from the Department of 
State.
    The countries are: Belize, Burma, Cuba, Iran, Laos, North 
Korea, Saudi Arabia, Sudan, Syria, Uzbekistan, Venezuela, and 
Zimbabwe. And because I don't want to put you in an indelicate 
position here, I don't know if you know how many of these 
countries receive Generalized System of Preferences, GSP, trade 
benefits.
    Ms. Burkhalter. I've actually got the list here, if you 
give me a second. Maybe others would like to respond. Let's 
take a look at GSP.
    Chairman Durbin. If anybody else would like to comment.
    Ms. Vandenberg. I can't answer that specific question, but 
while Ms. Burkhalter is looking I'd like to make two points 
about--about the TIP report every year. I would disagree 
slightly with Ms. Burkhalter that it's a great time to be a 
victim around the time that the stats are due, because 
prosecutions don't always operate in the best interests of 
victims.
    The victims who are forced to testify who don't receive 
witness protection, who don't receive any kind of benefits or 
protections from the State, when a State is fighting to gain 
prosecutions but at the expense of victims in order to stay off 
of tier three of the TIP report, then I think we have a real 
problem.
    And so there needs to be, I think, added emphasis on the 
services that are provided to victims in order to generate the 
kinds of prosecution statistics that countries like to brag 
about.
    The second issue is talking to nongovernmental organization 
leaders in countries like Bosnia. They find--and in Romania as 
well. They sometimes find that the lack of first tier status of 
their own country--their governments sometimes blame that on 
the nongovernmental organizations themselves. They see 
nongovernmental organizations as organizations that are airing 
the country's dirty laundry and putting the country's status at 
risk.
    So, there are two phenomena relating to nongovernment 
organizations that we've seen in the TIP report. One, is that 
NGO's are blamed when countries get a bad tier rating. The 
second, is that nongovernmental organizations are sometimes not 
fully credited. Sometimes States actually get the credit for 
the work that NGO's do rather than the nongovernmental 
organizations themselves getting credit for sometimes working 
in a hostile environment.
    Ms. Burkhalter. That's a good point.
    Chairman Durbin. Ms. Burkhalter?
    Ms. Burkhalter. She raises a good point, by the way, and I 
wouldn't disagree with it. I would also say that when you're 
working locally and you're trying to get perpetrator 
accountability so as to deter this crime, you are--you know, 
you're not working with the best police forces in the world.
    What we try to do at IJM is bring up standards and watch to 
protect both the victims and people who are collaterally 
affected, and it is kind of a building block thing. But I take 
both those points. I think they're very useful.
    I'm just quickly checking the eligibility. I only see, of 
those you named, Zimbabwe and Venezuela. Frankly, in both cases 
I'd be sort of surprised if too much were coming in duty-free. 
I'd have to--I'd have to go back. This is either the latest we 
could get--it's a February 2005 document, however.
    But the rest of the countries you named, if you don't mind 
me saying so, sort of look like the official enemies list. None 
of us would be eager to see Burma get anything, one might add; 
ditto, Cuba, and some of the other places.
    I just think there's been progress in this area, but this 
cannot look like the sort of friends and enemies of the United 
States club. It is important that there be an honest eye.
    I know that there's something of a diplomatic tussle over 
this every year because it is--it's difficult for other U.S. 
interests to hold friends accountable for egregious crimes.
    And I might add, the United States failing to clean its own 
house in this regard does not enhance our ability to be an 
upholder of these standards, but I do think we should do 
better.
    Chairman Durbin. One last point I'd like to ask you. You 
mentioned the Millennium Challenge accounts.
    Ms. Burkhalter. Yes.
    Chairman Durbin. So do we take this into account, how 
countries are doing when it comes to trafficking enforcement, 
their own laws?
    Ms. Burkhalter. You'd have to ask MCA administrators. I've 
not liaised with them yet, but I'm sure going to, because some 
of the countries where we work that are kind of threshold 
countries, that means they're almost eligible, and this is a 
wonderful time diplomatically to really bring them along 
because if they--in an accountable way.
    We lose cases every week, we and the prosecutors working 
with us, just lose cases--more cases because of corruption than 
any other factor, much more so than--to my knowledge than, lack 
of training, and all of the sort of economic factors.
    Lose more cases, and not just trafficking cases, though the 
corruption issue is much greater on trafficking because there's 
a lot of money involved. In a common rape case, for example, we 
see bribery sometimes. We'll lose a case, when some local 
official has been paid off, or asked to be paid off by the--by 
the family.
    But the real issue here is corruption in the trafficking 
cases. And again, there's tangible things to look at, keeping 
in mind Ms. Vandenberg's caveat in that regard.
    Chairman Durbin. Any points that anybody would like to 
raise before we close the hearing that you believe are still 
outstanding that we haven't touched on?
    Ms. Kaufka. I'd like to just followup on the earlier 
comments about expanding jurisdiction abroad. As a service 
provider, I would emphasize that if this is considered, we also 
should consider protections for victims here.
    At the National Immigrant Justice Center, for example, we 
see many women who have been trafficked abroad, for example, 
trafficked from Albania or Moldova into Italy or Greece. They 
flee because of the impunity that Ms. Vandenberg mentioned 
earlier, and because of the corruption within their own police 
force and governments. They are unable to return home based on 
threats to themselves, or to their family members, and they 
have no relief in the United States under the TVPA because the 
trafficking did not occur within the borders of the United 
States.
    So, I would consider either extending T visas to those 
individuals or expanding asylum law to include victims of 
trafficking as a particular social group.
    Chairman Durbin. I want to thank the panel. I'm trying to 
reflect on this issue, which I've tried to study closely for 
this hearing. It's clear that it's a relatively new law that 
we're dealing with here. It's a huge problem. It's a complex 
prosecution problem, trying to find a witness, trustworthy 
witness, that comes forward that can help you prosecute a case 
that could involve a court fight and a long period of time.
    I think, despite the statistic that Ms. Becker noted, that 
in 6 years our prosecutions are up 600 percent, that I think we 
all agree that we can do better, and we need to do better.
    Some of the suggestions made by Ms. Kaufka and others about 
how to make these prosecutions more effective by being more 
sensitive to the victims and their families, I think, is a 
point well taken and it's something that the law should 
recognize.
    But I return to a couple points here that still trouble me, 
the point made by Ms. Vandenberg about our government 
contractors and the fact that they are--they seem to be dealing 
with impunity in this field. I mean, that really reflects on 
us.
    If you're right, Ms. Burkhalter, that you can't find human 
trafficking abroad without government corruption, what does it 
say about us that we would have government contractors involved 
in some forms, directly or indirectly, of human trafficking and 
not prosecute those cases?
    Some other committee someplace else in the world could be 
holding a hearing today, saying, you know, it's probably a case 
of corruption in America that's led to this situation. I hope 
that's not the case, but I think we have to find a way to make 
sure that our contractors, these companies that our tax dollars 
sustain, are held accountable and understand the economics of 
their decision, if not the criminality of their decision.
    And, finally, I think that when we're dealing with these 
other countries around the world, we can do a lot better in 
being much more aggressive in trying to set standards when it 
comes to human trafficking, particularly in our bilateral 
relations with these countries so that they know we are 
extremely serious about this.
    I thank the panel. I thank all of you for being here today. 
I want to thank Mike Zubrensky on my staff for bringing this 
hearing together, and our staffers, Reema Dodin, Justin 
Steffen, and Joe DeMaria, to help prepare for this hearing.
    The record will be kept open for a week for those who want 
to submit written questions to the members of the panel, and 
for responses that we might have elicited by our questioning.
    I thank you all for being here today. The Subcommittee 
stands adjourned.
    [Whereupon, at 4:30 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 37695.001

[GRAPHIC] [TIFF OMITTED] 37695.002

[GRAPHIC] [TIFF OMITTED] 37695.003

[GRAPHIC] [TIFF OMITTED] 37695.004

[GRAPHIC] [TIFF OMITTED] 37695.005

[GRAPHIC] [TIFF OMITTED] 37695.006

[GRAPHIC] [TIFF OMITTED] 37695.007

[GRAPHIC] [TIFF OMITTED] 37695.008

[GRAPHIC] [TIFF OMITTED] 37695.009

[GRAPHIC] [TIFF OMITTED] 37695.010

[GRAPHIC] [TIFF OMITTED] 37695.011

[GRAPHIC] [TIFF OMITTED] 37695.012

[GRAPHIC] [TIFF OMITTED] 37695.013

[GRAPHIC] [TIFF OMITTED] 37695.014

[GRAPHIC] [TIFF OMITTED] 37695.015

[GRAPHIC] [TIFF OMITTED] 37695.016

[GRAPHIC] [TIFF OMITTED] 37695.017

[GRAPHIC] [TIFF OMITTED] 37695.018

[GRAPHIC] [TIFF OMITTED] 37695.019

[GRAPHIC] [TIFF OMITTED] 37695.020

[GRAPHIC] [TIFF OMITTED] 37695.021

[GRAPHIC] [TIFF OMITTED] 37695.022

[GRAPHIC] [TIFF OMITTED] 37695.023

[GRAPHIC] [TIFF OMITTED] 37695.024

[GRAPHIC] [TIFF OMITTED] 37695.025

[GRAPHIC] [TIFF OMITTED] 37695.026

[GRAPHIC] [TIFF OMITTED] 37695.027

[GRAPHIC] [TIFF OMITTED] 37695.028

[GRAPHIC] [TIFF OMITTED] 37695.029

[GRAPHIC] [TIFF OMITTED] 37695.030

[GRAPHIC] [TIFF OMITTED] 37695.031

[GRAPHIC] [TIFF OMITTED] 37695.032

[GRAPHIC] [TIFF OMITTED] 37695.033

[GRAPHIC] [TIFF OMITTED] 37695.034

[GRAPHIC] [TIFF OMITTED] 37695.035

[GRAPHIC] [TIFF OMITTED] 37695.036

[GRAPHIC] [TIFF OMITTED] 37695.037

[GRAPHIC] [TIFF OMITTED] 37695.038

[GRAPHIC] [TIFF OMITTED] 37695.039

[GRAPHIC] [TIFF OMITTED] 37695.040

[GRAPHIC] [TIFF OMITTED] 37695.041

[GRAPHIC] [TIFF OMITTED] 37695.042

[GRAPHIC] [TIFF OMITTED] 37695.043

[GRAPHIC] [TIFF OMITTED] 37695.044

[GRAPHIC] [TIFF OMITTED] 37695.045

[GRAPHIC] [TIFF OMITTED] 37695.046

[GRAPHIC] [TIFF OMITTED] 37695.047

[GRAPHIC] [TIFF OMITTED] 37695.048

[GRAPHIC] [TIFF OMITTED] 37695.049

[GRAPHIC] [TIFF OMITTED] 37695.050

[GRAPHIC] [TIFF OMITTED] 37695.051

[GRAPHIC] [TIFF OMITTED] 37695.052

[GRAPHIC] [TIFF OMITTED] 37695.053

[GRAPHIC] [TIFF OMITTED] 37695.054

                                 <all>

</pre></body></html>
